<html>
<title> - THE 2010 ELECTION: A LOOK BACK AT WHAT WENT RIGHT AND WRONG</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



      THE 2010 ELECTION: A LOOK BACK AT WHAT WENT RIGHT AND WRONG

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                                 of the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                 Held in Washington, DC, March 31, 2011

                               __________

      Printed for the use of the Committee on House Administration




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
67-298                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                   COMMITTEE ON HOUSE ADMINISTRATION

                DANIEL E. LUNGREN, California, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES GONZALEZ, Texas
RICHARD NUGENT, Florida

                           Professional Staff

                      Philip Kiko, Staff Director
                  Jamie Fleet, Minority Staff Director
                                 ------                                

                       Subcommittee on Elections

                  GREGG HARPER, Mississippi, Chairman
AARON SCHOCK, Illinois               CHARLES A. GONZALEZ, Texas
RICHARD B. NUGENT, Florida           ROBERT A. BRADY, Pennsylvania
TODD ROKITA, Indiana

 
      THE 2010 ELECTION: A LOOK BACK AT WHAT WENT RIGHT AND WRONG

                              ----------                              


                        THURSDAY, MARCH 31, 2011

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:35 a.m., in 
Room 1310, Longworth House Office Building, Hon. Gregg Harper 
(chairman of the subcommittee) presiding.
    Present: Representatives Harper, Nugent, Lungren, and 
Gonzalez.
    Staff Present: Peter Schalestock, Deputy General Counsel; 
Kimani Little, Parliamentarian; Joe Wallace, Legislative Clerk; 
Yael Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Bob Sensenbrenner, Elections Counsel; 
Karin Moore, Elections Counsel; Kyle Andersen, Minority Press 
Secretary; Matt Defreitas, Minority Professional Staff; Khalil 
Abboud, Minority Elections Staff; Thomas Hicks, Minority 
Elections Counsel; and Gregg Abbott, Minority Professional 
Staff.
    Mr. Harper. I now call to order the Committee on House 
Administration's Subcommittee on Elections' oversight hearing 
evaluating the 2010 midterm elections. The hearing record will 
remain open for 5 legislative days so that members may submit 
any material that they wish to be included therein.
    A quorum is present, so we may proceed.
    The Subcommittee on Elections has the important task of 
overseeing Federal elections and considering legislative means 
to improve and protect the integrity of our electoral system. 
This committee previously explored the issue of military and 
overseas voting as well as the operations and budget requests 
of the Election Assistance Commission. Today, I look forward to 
hearing about what we can further learn from the 2010 
elections.
    According to the United States Elections Project, 40.9 
percent of the Voting Eligible Population turned out in 2010. 
That is slightly higher than in the last two mid-term 
elections. Nonetheless, we need to remain constantly vigilant 
in ensuring that all eligible voters have proper access to the 
polls and that they are not disenfranchised by illegal voting 
or equipment malfunctions.
    I look forward to hearing from our witnesses regarding 
recent reports of noncitizen voting in their States and about 
the measures we can take to stop such activity. We will also 
hear about technological issues in the 2010 elections, which is 
vitally important as we seek to ensure no vote is lost or 
disenfranchised from lax oversight of our voting equipment.
    Through the Help America Vote Act, the Federal Government 
spent several billion dollars helping States purchase new 
voting equipment. HAVA also established a new Federal system to 
test and certify voting machines. These are important 
investments, and we need to monitor how they translate into the 
actual voting experience.
    My colleagues and I are committed to ensuring the integrity 
of elections, of protecting the hard-fought right to vote, and 
in learning from the past as we evaluate proposals for the 
future of our electoral system. I thank each of them for being 
here, and all of you for taking the time to be here and would 
like now to recognize my colleague, Mr. Gonzalez, who is now 
the ranking member of this subcommittee, for the purpose of 
providing an opening statement.
    Mr. Gonzalez.
    [The statement of Mr. Harper follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gonzalez. Mr. Chairman, thank you very much.
    And of course, I appreciate all of your hard work, and I do 
want to acknowledge the hard work of our staffs.
    And I welcome the witnesses. I am going to be brief. Mr. 
Brady may be here a little later, but I am not sure at what 
time. But, again, this is obviously an issue dear to all of us.
    I think we all share the same goal, and that is to, 
basically, accommodate the voter, make sure that the voting 
experience is one that is easy, of course, to exercise. And if 
that is our goal, the differences we may have is, How we use 
limited resources, What are perceived problems as opposed to 
actual problems, and What can we do?
    So I am hoping that today we can identify common ground. 
Again, I am not real sure that we are going to agree what needs 
more attention. That may be another issue or another matter 
and, as the testimony may develop, maybe it won't.
    I am hoping that today we all leave here today still united 
in that single purpose and goal in trying to find the best 
solutions, as I said, with the limited resources that you have 
at the local and State level--and I know you may be looking to 
the Federal Government for assistance--and we are also limited 
by the economics of our time and budgetary constraints.
    But, when it is all said and done, if we don't have an open 
process and a process that accommodates the voting experience, 
then what are we all doing in the respective positions that we 
hold?
    And, with that, I would yield back, Mr. Chairman. Thank 
you.
    [The statement of Mr. Gonzalez follows:]
    Mr. Harper. I would like now to introduce our witnesses.

 STATEMENTS OF THE HONORABLE SCOTT GESSLER, COLORADO SECRETARY 
 OF STATE; THE HONORABLE MARK RITCHIE, MINNESOTA SECRETARY OF 
  STATE; SUSAN GILL, SUPERVISOR OF ELECTIONS, CITRUS COUNTY, 
   FLORIDA; KEN CARBULLIDO, SENIOR VICE PRESIDENT OF VOTING 
 SYSTEMS, ELECTION SYSTEMS & SOFTWARE, INC.; LAWRENCE NORDEN, 
DEPUTY DIRECTOR, DEMOCRACY PROGRAM, BRENNAN CENTER FOR JUSTICE 
                      AT NYU SCHOOL OF LAW

    Mr. Harper. The Honorable Scott Gessler is the 37th 
Secretary of State of Colorado, elected this past November. Mr. 
Gessler was previously a partner at Hackstaff and Gessler, 
where he focused on election law, constitutional law, and 
campaign finance. He has also served at the Department of 
Justice as a trial attorney focusing on international criminal 
law and terrorism, and I know has made many recommendations to 
the Colorado General Assembly following the 2008 elections.
    The Honorable Mark Ritchie is the 21st Secretary of State 
of Minnesota. Prior to his election as Secretary in 2006, Mr. 
Ritchie served for many years in Minnesota's Department of 
Agriculture. He served as president of the Institute for 
Agriculture and Trade Policy from 1988 to 2006, and currently 
is the President of the National Association of Secretaries of 
State.
    Ms. Susan Gill is the Citrus County Supervisor of 
Elections, elected in 1996. She was reelected--something we all 
envy--without opposition in 2000, 2004 and 2008.
    Congratulations.
    Ms. Gill is a member of the Florida State Association of 
Supervisors of Elections, serving as president in 2005 and 
2006, and has held, I believe, every office position in that 
organization and has been very, very active on our voting 
process. She served as the chair of the Rules and Legislative 
Committees, and is currently the cochair of the association's 
Vote Center Task Force and has great expertise in this area.
    Mr. Ken Carbullido--I hope I said that right.
    Mr. Carbullido. Exactly right.
    Mr. Harper. Mr. Carbullido is senior vice president of 
Voting Systems, Election Systems & Software, one of the 
country's most successful election management companies. He has 
over 30 years of experience in a variety of technology 
development and management roles.
    Prior to joining Election Systems & Software, he was the 
Chief Information Officer for First Data Resources. Over his 
career, Mr. Carbullido has been active in application software 
development, systems software development, hardware 
engineering--many items, including quality assurance. And we 
look forward to hearing your testimony also.
    Mr. Lawrence Norden is the Deputy Director of the Democracy 
program at the Brennan Center for Justice at the NYU School of 
Law. He is also the Director of the Brennan Center's Voting 
Technology Project. He has authored several nationally 
recognized reports related to voting rights, voting systems, 
and election administration. He also served as chair of the 
Ohio Secretary of State's bipartisan election summit and 
conference.
    We appreciate all of you taking the time to be here today. 
The committee has received written testimony from each of you. 
At the appropriate time, I will recognize each of you for 5 
minutes to present a summary of the submission. To help you 
keep that time, we have a timing device that you will see there 
in front of you. The device will have a green light for the 
first 4 minutes and will turn yellow when 1 minute remains, and 
when the light turns red, your time would be up.
    Secretary Gessler, we will begin with you for your remarks.

            STATEMENT OF THE HONORABLE SCOTT GESSLER

    Mr. Gessler. Thank you, Chairman Harper and Congressman 
Gonzalez, and other members of the committee.
    I appreciate the opportunity to appear before you today to 
discuss the results of a study that my office conducted 
regarding the citizenship of registered voters in Colorado.
    What we did is we compared our driver's license database to 
the registered voter database. And Colorado requires legal 
presence in order to issue a license to someone, a driver's 
license, and starting in 2006, our State began collecting data 
on what type of evidence was presented to receive a driver's 
license, whether it was a citizenship document or an 
immigration document, in order to receive that. And so what we 
did was we compared that information against the registered 
voter database.
    What we found was that there were 11,805 individuals who 
had registered to vote in Colorado and also had provided sort 
of self-affirmed--provided evidence that they were not citizens 
starting in 2006--or going back to 2006, that they were not 
citizens when they got their driver's license. Of those 11,805 
individuals, 106 first registered to vote, and then when they 
got their driver's license later, showed that they were 
noncitizens when they got their driver's license. Of the 11,805 
individuals, about 5,000, almost 5,000, voted in the last 
election. So that was sort of the basic contours of the study 
we did.
    What we think this study shows is that Colorado has a 
problem with noncitizens who are registered to vote and may be 
voting as well. We don't quite know the size or the magnitude 
of that problem. So the analysis is in some ways preliminary. 
What we do know is that there is some problem here. We know the 
106, we are reasonably certain that when people register to 
vote and then later show that they are a noncitizen, that they 
are improperly registered to vote.
    Our data only goes back to 2006, and for many immigrants, 
it takes at least 5 years before they can become a U.S. citizen 
after they first get their green card. So some people may have 
gotten a driver's license when they were a noncitizen, become a 
citizen, and then registered to vote. And some did not, some 
registered to vote improperly and remain that way.
    And we also have some anecdotal information. Within the 
last 2 or 3 years, we have had about 150 people in the State of 
Colorado who registered as noncitizens and then later withdrew 
their registration, so they sort of self-identified themselves 
and withdrew their own registration. So we know we have a 
problem here. We don't know the size of it.
    One of the things that we are looking at in Colorado--and 
that I would suggest to the committee members as well--is that 
we need additional tools to be able to measure the size of this 
issue and resolve it as well. Issues regarding immigration and 
regarding registrations of noncitizens to vote draw a lot of 
attention and intense debate. Unfortunately, oftentimes there 
is not very thorough analysis that goes on there, so that is 
one of the things that we need to do.
    What we are trying to do in Colorado is create a system 
where the Secretary of State can reach out to these folks, send 
letters to them asking them to provide proof of citizenship, 
and if they don't respond, we will put them in a suspended 
status. It is a crime to register to vote or to vote as a 
noncitizen in the State of Colorado. We don't think criminal 
prosecution or investigation is the right way to go. It is a 
very cumbersome approach here, and our goal is just to maintain 
accurate databases.
    One of the things we have also done is reached out to 
Federal authorities to identify information. Now the SAVE 
program has been very--we are working with them, with 
immigration authorities to get lists of noncitizens who reside 
in Colorado.
    The other thing we tried to do is we contacted the United 
States District Court for the District of Colorado and we asked 
them for noncitizen juror recusals, so when someone goes into a 
jury panel and those are drawn from voting rolls and they 
recuse themselves because they are noncitizen, we asked for 
that information so we can check it against the voting rolls. 
GAO published a study several years back that stated that was a 
possibility to maintain clean voting rolls. Unfortunately, our 
district court has denied us access to that information, and 
that is certainly one area that would be helpful.
    So, overall, I think what we have been able to learn is 
that there is an issue with noncitizens registered to vote and 
voting in Colorado. We know there is a problem. We don't know 
the size of it. We are looking to get the tools to better be 
able to measure this and to resolve this in an administrative 
fashion. And we certainly hope that we will receive assistance 
from the Federal Government with those sources of information 
as well. So thank you very much for your time.
    [The statement of Mr. Gessler follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Harper. Thank you very much, Mr. Gessler.
    Now we will hear from Mark Ritchie and look forward to your 
remarks.

            STATEMENT OF THE HONORABLE MARK RITCHIE

    Mr. Ritchie. Thank you very much, Mr. Chairman.
    To all members, I want to first thank you very much for 
your willingness to come over to our NASS national meeting. It 
was a great honor for us. We want to really continue that 
relationship, so thank you again; we look forward to continuing 
that conversation.
    I am testifying today on behalf of my great State, but I do 
also serve as the current President of NASS. In that position, 
I follow fairly closely upon your colleague, now Congressman 
Rokita, who was our former President.
    Minnesota has the habit, or the culture, of going back 
after each election and talking about what went right, what 
went wrong, what can we do better? So we were very appreciative 
to hear this hearing was going to be happening here today. And 
after the last two election cycles, I have traveled statewide--
typically to 30 or 40 places, so that all 87 counties can 
participate--gathering up their impressions. I have three main 
impressions from the 2010 election:
    First, we were thrilled that even though we didn't have a 
presidential race, a Senate race, an issue on the ballot, a 
constitutional amendment, we still had a very high turnout. 
Again, Minnesota was number one in the Nation. We know that is 
because our citizens very much trust our system, and they have 
always had that experience. We vote on paper ballots. We are a 
local-based system, and people trust the system. But we also 
are aware that at a national level, turnout was 40 percent, as 
you cited; so just as a longer-term issue, there is the 
question of very low voter participation.
    Some States that have typically been higher were down in 
the 30 percent range and a couple States down in the 20 percent 
range. This is a very serious issue for our Nation, and I think 
it is something we all need to think about and imagine what we 
could do. And some of the work that you have done, especially 
making sure our overseas voters, the military voters, can vote 
will help with that.
    The second thing is that we were strongly affirmed in the 
progress we made, thanks to the MOVE Act, in being able to 
change the date of our primary to extend the time for our 
overseas voters.
    When I was elected in 2006, sitting on my chair when I was 
sworn in--actually, the day I was sworn in--I found this letter 
from the Federal Voting Assistance Project. It said, Dear 
Secretary of the State--it was addressed to the prior Secretary 
of State--and it essentially said, very politely, Minnesota 
does great in elections, but terribly when it comes to military 
and overseas voters, and it had 10 suggestions. I did not know 
they had been sending that letter for 10 years and that it had 
been ignored, but in any case, we picked up the letter. We 
worked with the legislature. We passed much of that agenda. We 
implemented it. We had a lot of success from that, but we were 
not able to get the Governor's agreement to change the date of 
the primary. That bill was vetoed. Thanks to the MOVE Act, we 
were able to overcome the veto.
    The 46 days--our State implemented the MOVE Act with 
absentee ballots sent 46 days before the elections--we have had 
the effect of reducing the late returns. That was the most 
common thing. The unanticipated but very important secondary 
effect was that that length of time allowed many people to be 
able to correct a small error that they had made, either 
forgetting a signature or forgetting a date on an absentee 
ballot envelope. I think ultimately we had, in 2008, 540 late 
ballots; in 2010, approximately 130 or 140. But we also reduced 
the error rate from 2 percent in 2008 to less than half of a 
percent in 2010, and that is much lower than our domestic rate 
as well. So the extra time had several different positive 
benefits, and that was terrific.
    The third thing we implemented was the use of newly 
available electronic databases that really lowered the cost and 
increased the efficiency and the integrity at the local level. 
We used our ``change of address'' files from the postal service 
and reduced our post-election data entry by about 100,000--a 
very great savings to local officials. We use Social Security 
databases now to take people who die in other States off our 
list. If you die inside of Minnesota, we know very soon. If you 
die in Florida--some Minnesotans go to Florida in the winter--
it is very complicated. I am sure anyone who has run for office 
who has done any phoning knows what it means to have that pause 
at the other end when you ask for somebody and you know. I get 
these calls in my own home, and that little touch of grief 
happens when somebody calls and asks for my daughter. So I am 
very positive about that use of electronic databases improve 
our list.
    So we also use electronic databases effectively to 
challenge voters before election day--similar to what was 
mentioned about Colorado, we use the system of challenging 
before election day, and we use the system afterwards to 
identify if anyone has potentially voted illegally and then 
turn those names over to our county attorney, who is the 
prosecuting authority in Minnesota.
    Thank you again for putting attention on this topic. I look 
forward to your questions.
    [The statement of Mr. Ritchie follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Harper. Thank you, Mr. Ritchie. I appreciate you being 
here and hearing your testimony.
    Ms. Gill, we ask to hear from you now. Thank you very much. 
And again, you are now my idol. So go ahead.

                    STATEMENT OF SUSAN GILL

    Ms. Gill. Well, it is a good start anyway.
    Chairman Harper and Mr. Gonzalez, members of the 
committee--and a special hello to my Congressman, Richard 
Nugent--I want to thank you for the opportunity to participate 
in this hearing.
    First, I would like to thank Congress for the Help America 
Vote Act. I have been in this job for more than 14 years now 
and I can tell you we were able to use the HAVA funds to 
provide equipment for people with disabilities, to enhance our 
voter education programs, and to provide additional poll worker 
training tools. All the grants were greatly appreciated.
    A major concern at every level of government, whether it is 
local, State, or Federal, is the budget. Shrinking budgets can 
cause serious problems for elections. A March 22nd article in 
the Fresno Bee entitled, ``Report: Blame Budget Cuts on 
November Election Snags,'' it reports on a November 2010 
election and the problems that were caused by the slashed 
budget. The grand jury recommended that the country supervisors 
should ``provide adequate funding to ensure the ability of the 
county clerk to maintain credible elections.'' The article 
continues on saying that the funding could get worse, and that 
the county officials have asked their department heads to 
reduce their budget another 14 percent.
    The article also reported that the county records indicated 
that the funding for the elections office is down 40 percent 
from what it was 5 years ago. If you take the 40 percent and 
the 14, this Fresno election official is asked to conduct 
elections with 54 percent less funding than 5 years ago.
    I am not singling out Fresno. The problems Fresno 
encountered will be played out in many other jurisdictions in 
the Nation. We are charged with conserving tax dollars. We must 
ask the public to understand that there will be reductions in 
conveniences and services, or there will have to be tax 
increases, which nobody wants.
    The fear of every election professional in America is how 
to assure that we serve voters well when the funds to conduct 
elections have been significantly reduced. I cannot overstate 
our concern. Cuts have consequences that have to affect 
expectations and potentially affect performance.
    Florida had a smooth 2010 election, I am happy to report. 
As you know, Florida has had perhaps more election changes in 
the last 10 years than any other State, and so we know 
something about adapting quickly. I will say that the issue 
that captured attention was the late reporting of results in 
one county. Our election for the Governor was very close, 1 
percent, and the results were not available until the next day. 
This caused a lot of criticism because nobody wants to wait for 
election results. So we have to remember that the accuracy of 
the votes is more important than the timeliness. Timeliness is 
very important. However, it can't outweigh accurate results.
    On the plus side, voter confidence and voter satisfaction 
has greatly increased. Voters can now vote early, vote by mail, 
or go to their polling place. This means if they vote by mail, 
they don't have to go to their polling place. If they vote at 
an early vote site, they are never at the wrong precinct. We 
are looking at vote centers in Florida as a result of this, as 
they do in Minnesota and Indiana; we think that might be the 
answer.
    Redistricting takes place in 2012, as we all know. That is 
going to put additional pressure on the election process. We 
need to know what districts to put candidates on the ballot, 
and you need to know what district you are running in, so it is 
going to be tight there.
    In conclusion, we have made great progress since the 2000 
election. The progress in conducting fair, honest and accurate 
elections does come at a price. My hope is that the reduction 
in funding for elections does not cause issues on the upcoming 
2012 elections.
    My fear is that the cutting of funds at the State and 
Federal level end up in the laps of local government. We cannot 
afford to have the voter confidence that we have gained over 
these years eroded. Citizens must have confidence in their 
election process. If voters stop believing in the fairness of 
elections, they cannot believe in the government that results 
from it.
    I assure you that elections officials are dedicated to the 
integrity of the elections process and will work to preserve 
the process to the best of our abilities with the resources 
provided.
    Thank you very much for the honor and the opportunity to 
address this committee.
    [The statement of Ms. Gill follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Harper. Thank you very much, Ms. Gill.
    And having been an observer for 2 weeks during the 2000 
election recount, I can assure you that you have made eligibly 
great strides in the State of Florida.
    We will now hear from Mr. Carbullido and look forward to 
your remarks.

                  STATEMENT OF KEN CARBULLIDO

    Mr. Carbullido. Thank you, Chairman Harper, Mr. Gonzalez, 
and members of the committee for inviting me here to testify on 
behalf of the ES&S.
    My comments today are centered both on things that went 
right as well as things that could have been improved. 
Specifically, I am here to address the recent actions taken by 
the EAC to open a formal investigation of ES&S's Unity system, 
version 3.2.0.0. I have a deep understanding of the issues, 
solutions, processes, communications, and the involvement of 
the EAC. I have an observation to make as well as some 
recommendations that I would like the committee to consider.
    What were the issues? The initial issue, first identified 
by Cuyahoga County, Ohio, during preelection testing, was a 
freeze/shutdown in a limited and random instance on the DS200 
scanner. This freeze/shutdown occurred in extremely low 
instances. It is critical to note that this situation was 
recoverable by merely restarting the unit. No votes were lost; 
voting was not interrupted. ES&S takes all system issues very 
seriously. So, while the interruption itself was not an 
accuracy issue, ES&S recognizes that it could potentially be 
concerning to voters that might witness such an event, and 
therefore, this became a top priority for ES&S to correct this 
issue.
    Because the occurrence of the issue was infrequent, random, 
and not easily and always reproducible, because there were two 
separate low level issues at the root cause, one which involved 
COTS software, it took a significant effort to identify the 
root causes and the software corrections. And it took quite an 
effort to ensure and validate that the corrections and the 
updates were completely resolving the freeze/shutdown issue.
    Prior to completion of the testing of these updated 
software at Wyle Laboratories, there were a series of 
additional events that transpired. Additional software issues 
were identified and addressed. We were forced to transfer the 
testing of this new improved software version to a new voting 
system test laboratory. A fix was introduced to correct a 
previously reported issue that involved the processing of 
skewed ballots. Another issue was the occurrence of a ballot 
drop issue that occurred in the laboratory when the ballot 
dropped into the box without being counted.
    I am pleased to report that all of these issues have been 
resolved. The EAC has now certified Unity 3.2.1.0, which 
contains the updated version of the DS200 software that 
corrects all of the above-noted issues as well as many other 
enhancements. This updated version will be used to amend the 
3.2.0.0 release, which will provide the required cure outlined 
within the EAC's formal policies and procedures.
    Relatively speaking, each software solution was found 
rather quickly. Getting these corrections and improvements into 
the field in a timely manner is where ES&S believes the process 
could be improved. For example, the skewed ballot issue was 
reported to ES&S on October 8, 2009. The software was corrected 
by October 15, 2009. The first approval of this correction was 
granted by the EAC on July 22, 2010. It took 7 days to correct 
the issues and 9 months to obtain an EAC approval.
    The freeze/shutdown initially reported on April 6, 2010, 
was corrected by ES&S on June 29, 2010. Just earlier this week, 
the EAC certified the corrected software. ES&S devoted 3 months 
of intensive investigation to isolate and correct the problem, 
and 9 long additional months transpired while the EAC, the VSTL 
and the EAC technical reviewers reviewed our analysis and 
corrections, developed a test plan, and finally validated the 
corrections to their approval. The ballot drop issue was 
discovered on November 11, 2010. ES&S corrected it on December 
23. Final approval was just received this week.
    As you can tell, our primary concern is the timing of 
advancing these often-needed corrections into the field in a 
way that is beneficial and cost-effective, not only to the 
vendors but, more importantly, to the election officials and 
the voters. My second concern is with the action taken by the 
EAC to open a formal investigation of these issues.
    At the time of the investigation, all the facts were known, 
all the documentation was given to the EAC, and testing was in 
final stages. We are not opposing an investigation where one is 
warranted, but in this case, we exhibited total compliance in 
working with the EAC to ensure that these issues were corrected 
and that the EAC was in full possession of all the 
documentation and technical analysis.
    It is our belief that the EAC can provide a reliable, 
standardized, efficient and effective service for all States 
and customers that they can rely on.
    Since this is a hearing of what went right in 2010, I would 
be remiss if I did not applaud our customers, including Jane 
Platten of Cuyahoga County and all of our customers across the 
Nation, who conducted over 8,500 elections in 2010 with polls 
opening on time, voters voting in confidence, and results 
reported in a timely manner in a system maintained in a secure 
environment.
    We stand committed to working with this esteemed body and 
the EAC to continue to find ways to improve the voting system 
test program. It is not broken. It is on the right track, but 
it does need some work and adjustments to keep it functioning 
at a level that is beneficial and timely for all.
    Once again, thank you for your time and the opportunity to 
speak here today.
    [The statement of Mr. Carbullido follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Harper. Thank you, Mr. Carbullido. I appreciate you 
being here today.
    I now ask unanimous consent to allow Mr. Lungren, the 
chairman of the full committee, to participate in this 
subcommittee hearing.
    Hearing no objection, Mr. Lungren, we welcome you here.
    At this time, we will hear from Mr. Lawrence Norden, and 
look forward to your remarks.

                  STATEMENT OF LAWRENCE NORDEN

    Mr. Norden. Thank you to the committee for giving the 
Brennan Center the opportunity to share with you the results of 
our studies of the Nation's election infrastructure in the 2010 
elections. The Brennan Center is a nonpartisan public policy 
and law institute based at NYU School of Law, and we work on 
issues of democracy and justice.
    What went right and wrong in 2010? As we heard from Ms. 
Gill, given the pace of change that we have seen in election 
administration over the last several years and given the 
shrunken budgets of election officials around the country, it 
is fair to say that things went remarkably well in 2010.
    Unfortunately, in some important ways, national election 
infrastructure has not kept up with modern society, and this 
has continued to cause problems in our elections--it did in 
2010--and I want to point to the continued critical need for 
two specific changes.
    One is a modernization of our country's registration 
system, including the adoption of automated and online 
registration for consenting eligible citizens. And the second 
is the creation of a national database that identifies voting 
system malfunction and flaws to prevent their recurrence.
    First I want to talk about voter registration. The 2010 
election showed, again, that we have a 19th century system that 
needs to be upgraded. It overwhelms election officials with 
burdensome and needless paperwork, and it prevents many 
American citizens from exercising their right to vote. I am 
sure many on the committee are aware of the Harvard/MIT study 
that estimated in 2008 as many as 2 to 3 million Americans were 
not able to vote because of problems with voter registration. 
And we saw similar problems again in 2010.
    The good news is, as a result of the Help America Vote Act 
of 2002, every State has or soon will have a statewide voter 
registration database. And many, as Secretary Ritchie mentioned 
they are doing in Minnesota, have been leveraging these 
databases to modernize their antiquated systems.
    Specifically, I want to talk about four things that States 
have been doing. One is that they have automated the 
registration process at voter registration agencies for 
consenting eligible citizens. Registration information is 
transmitted electronically and securely to election 
authorities, and this gets rid of the paperwork and the 
potential for clerical errors in that process.
    Several States have made registration portable. If I go to 
a government agency and I update that information, that 
information will be updated for registration purposes, unless I 
say that it should not be. Eleven States have created online 
interface for voter registration, meaning citizens can register 
online; they can make sure that their information is accurate; 
and they can find the right polling locations. And finally, 
some States are allowing for election day corrections, creating 
a fail-safe to ensure that errors or omissions on the rolls 
don't keep people from voting.
    The result is increased registration rates, more accurate 
and secure rolls, substantially less burden for election 
officials, less data entry, more managing of elections, and 
substantial savings for States.
    At the Federal level, Representative Lofgren last year 
introduced a bill that would allow registration through the 
Internet, and we hope that this committee will consider 
opportunities to build on that bill.
    Something I want to talk about briefly is voting machines. 
We have made much progress with voting machines. Unfortunately, 
we still see the unnecessary recurrence of problems. The same 
failures occur in one jurisdiction with the same machines in 
another jurisdiction at a later election. And this has, 
unfortunately, resulted in disenfranchisement.
    Unlike most products that we purchase and use in the United 
States--automobiles, airplanes, even toasters--for the vast 
majority of systems in use today manufacturers are not required 
to report malfunctions to any Federal agency, and there is no 
Federal agency that either investigates such alleged failures 
or alerts election officials and the general public to possible 
problems. I am running out of time, so I won't talk about some 
of the progress that the EAC has made in this area, but I do 
think that it is worth coming back to.
    I just want to wrap up by saying that, when it comes to 
voting machines and the importance of voting systems to our 
democracy, the Brennan Center has concluded that we do need a 
national searchable database of voting system problems to 
ensure that voting system defects are caught early, disclosed 
immediately, and corrected comprehensively.
    [The statement of Mr. Norden follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Harper. Thank you, Mr. Norden.
    I appreciate that very much.
    We now have time for committee members to ask questions of 
the witnesses. Each member is allotted 5 minutes to ask 
questions of the witnesses. To help us keep up with it, just 
like the witnesses, we use a timing device on the witness 
table. We will alternate back and forth between the majority 
and the minority.
    To begin with, I will recognize myself for 5 minutes, and 
first, I will start with Mr. Gessler.
    I would like for you to just comment on the progress of 
your investigation into noncitizen voting in Colorado.
    Mr. Gessler. Thank you, Mr. Chairman.
    Right now, the next steps that we have for our 
investigation is looking into the legal framework as to how we 
are going to be able to deal with this issue, where we have 
sort of an articulable reason why people who have self-affirmed 
as noncitizens are nonetheless on the voting roll. Again, some 
of it may be willful. Some of it may be erroneous, and some of 
it may stem from misunderstandings. We don't know. We don't 
have the tools, or we have not exercised tools in the past to 
measure this. So what we are looking at is a way to reach out 
to folks, to send them a letter and require them to provide 
proof of citizenship. Our view is it is better for someone to 
receive a letter in the mail than a knock on the door for a 
criminal investigation.
    Of course, we are reaching out to some of the Federal 
agencies for databases. Unfortunately, we have run into that 
roadblock with the district court in Colorado. And we are 
trying to create smoother legislative tools. My view on this is 
that we have uncovered an issue that does raise the likelihood 
that there are a large number of people who are operating 
illegally in Colorado. We want to remove that. We are not 
looking for a criminal tool, but we are going to take action on 
this.
    Mr. Harper. Can you tell me if anyone from the Voting 
Rights section of the Department of Justice has contacted you 
regarding your findings?
    Mr. Gessler. We have not received, to my knowledge, any 
contact from the Department of Justice.
    Mr. Harper. So what administrative remedies would best help 
you to deal with this issue that you are working on?
    Mr. Gessler. Well, I think the administrative remedy is an 
efficient way to reach out to the folks who have self-
identified as noncitizens in the recent past and to get more 
information from them. So we are looking at a way to do that 
efficiently, ideally through letters, through the mail, rather 
than personal investigations. And then the other thing we are 
looking at is to be able to reach out to other databases to be 
able to check.
    In Colorado, we recently had legislation that would require 
people to provide proof of citizenship up front--that was 
proposed legislation. It was not accepted by our State 
legislature; it died in our State Senate. So we don't have a 
screen for citizenship on the front end when people register to 
vote. What we are looking to do is, alternatively, to search 
databases and find other sort of objective ways to identify 
people who may have self-affirmed as noncitizens and maintain 
accurate voter rolls on the back end as it were.
    Mr. Harper. Thank you.
    Mr. Ritchie, do citizens in Minnesota have a right not to 
register? I mean, the way that your system works, do they have 
a way to opt out or is it automatic--tell us how that is going 
to work in your State.
    Mr. Ritchie. Mr. Chairman, the only State that I know of 
where all citizens are just in a sense automatically 
``registered'' is North Dakota, which the Secretary there 
builds the system. Minnesota's system is very similar to I 
believe all other 49 States, that in the process of getting a 
driver's license there is a box where you are asked--typically 
you are asked--would you like to register to vote, or 
reregister, in terms of changing your address? If the person 
says yes, that box is marked. That is signed, and then that 
goes to the Department of Public Safety, the Division of Motor 
Vehicles. That information is then transferred electronically.
    It has been screened for citizenship, for corrections, for 
everything else. So we have, I would say, a similar system to 
the other 49 States other than North Dakota, which is the one 
State where everybody does get ``registered'', so to speak.
    Mr. Harper. I know noncitizens can get their driver's 
license, obviously, in Minnesota, and you referred that you 
access maybe another database. What is that other database that 
you are accessing to crosscheck?
    Mr. Ritchie. Mr. Chairman, that is correct. Our driver's 
licenses have a date, they have a way--we call it a ``status 
check'' that they use within the inside of the process of 
applying for driver's licenses. We use that information to scan 
both before elections, to challenge voters on the front end, 
and we use it on the back end to see if in fact somebody 
registered through the Department of Public Safety, through 
vehicle services, that is a noncitizen. The legislature has 
also taken action to raise some fees, to provide additional 
moneys to the Department of Public Safety to be able to expand 
some of their capacity. But so far, it is all done 
electronically, basically using their data.
    Mr. Harper. Thank you, Mr. Ritchie.
    I will now recognize Mr. Gonzalez for questions.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    Mr. Gessler, let me ask you, there is a difference between 
someone who is not qualified, let's say a noncitizen, in 
registering, and it would be something separate if that person 
then exercised that particular right that they are not entitled 
to. Registration and actual voting: They are two different 
things, is that right?
    Mr. Gessler. Congressman Gonzalez, that is correct. In 
Colorado, however, they are both illegal if someone registers, 
and they know--which is willful behavior--and they know they 
are not----
    Mr. Gonzalez. We understand. And if you were going to 
devote limited resources, you probably would be targeting those 
that exercised an illegal right. I mean, you were a prosecutor 
once, right?
    Mr. Gessler. That is correct.
    Mr. Gonzalez. And so you know what I am talking about as 
far as making your best case and then guarding against what 
would be detrimental to the voting process and the rights of 
all Americans that are citizens and exercise their right to 
vote.
    Do you have any idea the resources that you expended in 
pursuing the comparison of the different data--and I have got 
here I think your letter or our report, ``Comparison of 
Colorado's Voter Rolls With Department of Revenue Noncitizen 
Records, March 8, 2011.'' Do you know what you devoted to that 
effort in the way of manpower and dollars?
    Mr. Gessler. I know that we did not expend any additional 
dollars in our budget. We did expend some manpower. I know I 
worked several late nights. However my salary is fixed, so that 
did not cost the State of Colorado any additional fees.
    Mr. Gonzalez. We are not talking about extra money. We all 
work within budgets, or we attempt to--and you will hear that 
the Federal Government doesn't, but nevertheless, the attempt 
is made.
    Let me ask, you were a prosecutor once. Would you take a 
case, based on the information that you were able to compile--
because I have read your report--would you present a case that 
uses words to a judge like, ``impossible to provide a precise 
number,'' ``data are inconclusive,'' ``incomplete,'' ``does not 
prove,'' ``cannot be determined''? You wouldn't base any case 
with that kind of conditioning language, would you?
    Mr. Gessler. Well, I think, Mr. Congressman, there are sort 
of two different frameworks here.
    One is a prosecutorial framework, as far as going forward. 
A second is whether or not that warrants criminal 
investigation. And I should say there is a third framework, is 
there an administrative way to resolve these uncertainties? 
What we are looking at in Colorado is not prosecuting, nor are 
we even looking at criminally investigating.
    What we are looking at, however, is to administratively 
resolve this. So I would agree with you that that is not 
adequate to be able to provide a basis for prosecution.
    Mr. Gonzalez. So, then, let's just work on what you might 
be able to do administratively. Working with the resources that 
you do have, who would be those individuals that would be able 
to assist you in ascertaining why someone who is not a citizen 
would fill out a registration form? Wouldn't that be, let's 
say, the Mesa County Clerk and Recorder? Is that Sheila Reiner; 
is that her name?
    Mr. Gessler. Yes, sir, Sheila Reiner.
    Mr. Gonzalez. All right. My understanding is she was very 
concerned about your allegations, and she requested the 
information of these individuals--obviously within her 
jurisdiction--and that you refused to provide her with that 
information; is that correct?
    Mr. Gessler. It is a tentative refusal at this point. We 
have an agreement with the Department of Motor Vehicles, and we 
are very concerned about making sure we protect people's 
private information. So we are still running the legal traps to 
be able to make sure that we are legally able to share that 
information with her.
    If, in fact, we are--and I believe our tentative 
conclusions at this point is that we are, but we are still 
conferring with the attorney general's office on that--if we 
are able to share that information without violating those 
privacy concerns, yes, we will do it. But I think our first 
concern is to make sure that we are not violating various State 
privacy requirements.
    Mr. Gonzalez. I just can't imagine that someone like Ms. 
Reiner would not be entrusted with some information regarding 
something that comes under the purview of her responsibilities, 
but we will move on.
    Isn't every voter registration, as a result of the Help 
America Vote Act, have a provision at the outset that asks the 
question of whether you are a citizen or not a citizen? And if 
you are not a citizen, you are not to proceed further with 
filling out the form?
    Mr. Gessler. That is correct. We have had problems in 
Colorado, however, some administrative errors where people that 
have filled out a registration form, said they are not a 
citizen, yet they nonetheless registered----
    Mr. Gonzalez. So who is authorized to have someone fill out 
a registration form? Because I am familiar with Texas; I am not 
with Colorado.
    Mr. Gessler. The clerks and recorders are the ones who 
receive that. Unfortunately, we have no verification process in 
the State of Colorado----
    Mr. Gonzalez. The individual that presents this form, let's 
say a Motor Vehicle, an individual, a clerk--in Texas, before 
you can have someone actually fill out a registration form, 
there is some training. You actually deputize folks. But there 
is some training involved so that they are placed on notice 
that a noncitizen is not to fill out this form. That is the 
first question that they will be asking. Do you not follow that 
in Colorado?
    Mr. Gessler. I am unfamiliar with the Texas training.
    Mr. Gonzalez. So, in Colorado, anyone can fill anything 
out, and there are no instructions. If there is an individual 
who represents a State, the county, or whatever, they are not 
charged with any responsibility to make sure that that 
individual is not signing that, and the question is posed. 
Because I think there actually is a simple answer to all of 
this.
    Mr. Gessler. I apologize, Congressman, I didn't fully 
follow that last question.
    I can say this, however, that people are instructed to read 
the questions and to fill them out accurately. I will say that 
we have seen human error. We have seen our database that allows 
people to be registered and to vote even though they are in a 
noncitizenship status. That is a problem with our database that 
we have recently resolved.
    I do also know that there is no verification, and our 
election officials do not verify the accuracy of any of the 
information on the voting rolls. I think that is what gives 
rise to this problem.
    Mr. Gonzalez. There is an affirmation that subjects 
somebody to penalties if they lie.
    Mr. Gessler. That is correct.
    Mr. Gonzalez. So there is then. You said there is--okay, 
there is no verification. All we have is affirmation, and that 
is, the individual who signs it under the penalty of law 
affirms that all of the information on here is correct.
    Mr. Gessler. That is correct.
    Mr. Gonzalez. And I've way exceeded the time.
    Thank you for your patience, Mr. Chairman.
    Mr. Harper. Thank you, Mr. Gonzalez.
    I will now recognize Mr. Nugent for questions.
    Mr. Nugent. Well, thank you for appearing today in front of 
this panel.
    Ms. Gill, we absolutely appreciate having you here, 
particularly since you are on the front lines in regards to 
voter registration and doing elections, and you have done a 
very good job in Citrus County.
    Going back to this conservation we were having as it 
relates to Colorado, what is the verification process in 
Florida as it relates to those that are not citizens?
    Ms. Gill. Okay. Well, the form says, as Mr. Gonzalez 
mentioned, that you are affirming that you are a United States 
citizen on our Florida form. That is one of the very first 
things that you do. And you are signing that you are. We are 
not requiring someone to provide us with proof of their 
citizenship because they are affirming that that is so.
    Now if we have information, as supervisors, that would lead 
us to believe that this person is not a citizen, then we would 
proceed from there. Other than that, it is a system that is 
built on trust.
    It is the same thing, we have the box on our Florida 
registration form that says, Are you a convicted felon, and if 
you are, have your rights been restored? This is part of the 
Florida law. So those boxes are there.
    And of course, with the felons, though, we do have a way of 
checking. They are matched up against the database with the 
Department of Corrections and such.
    But as we go forward with this and you talk about 
citizenship, you have to be really careful because back in 
2000--you may remember this--when we were trying to make sure 
that we didn't have felons on the voting list, the first list 
that came out was very inaccurate, and it came out just before 
election. It was dumped in the laps of supervisors of elections 
just before elections and said, do something with this. And 
then we had to send a letter that said, Dear Mr. Nugent, are 
you a convicted felon? We were trying to find the right words 
to say this for a database that was very flawed.
    So, as we move forward with this, I mean, it does have 
merit. We, as election officials, want to make sure that only 
those people who are eligible to vote do vote and are 
registered, but we need to be careful on how we go through that 
process of making sure that we have the right person.
    Mr. Nugent. Have you seen situations where actually those 
that are not citizens have----
    Ms. Gill. I have had two incidents that I can recall--very 
interesting because neither of them were willful. It was 
actually a person who, after having served in the military in 
World War II, thought that he was an American citizen and only 
found out when he went to get a U.S. passport to go on a trip 
that he was not a United States citizen, in which case he 
immediately saw an attorney and came to my office, took himself 
off the voting rolls until he did become a citizen. That is not 
willful.
    And then the other incident was very much like that, the 
person did not believe because of where he was born and his 
parents were--the citizenship of his parents and such. So both 
of them were not willful. That is Citrus County, Florida, 
though, which you are very familiar with.
    Mr. Nugent. Yes. Have you heard of any other cases in 
Florida that that has been an issue that you are aware of?
    Ms. Gill. I am sure there are because there are a lot of 
people out there. But again, I have to get back to the fact 
that we are asking these individuals who are signing up to 
affirm that they are a United States citizen, and our system 
right now is built on trust, unless we have some other 
information.
    Mr. Nugent. And I know that representatives from ES&S, when 
they talk about flaws or problems that occur during an election 
cycle particularly, it falls back on the supervisor of 
election, at least in Florida; you are the one who takes the 
heat.
    Ms. Gill. That is correct.
    Mr. Nugent. And that is not a good spot to be in as an 
elected official.
    You were talking about budgets, and obviously, we are all 
very concerned about budgets. What kind of budget cuts have you 
faced as supervisor of elections?
    Ms. Gill. Well, fortunately, in my county, they know we are 
working really hard to control our budgets, so nobody in my 
county has said to me, Susan, you have to cut your budget by 14 
percent. I keep telling them--and I have started last year 
telling them--look, we have an added election of the 
Presidential preference primary; it is a redistricting year; we 
have certain expenses that are just happening every 10 years, 
notifying voters, letting them know what their new districts 
are, letting them know where their new polling places are. So 
this is an added expense. So I have been preparing them.
    Other counties in our State, they are going forward and 
saying, hey, you have to cut your budget, even with those 
things, the fact that we have an additional election and then 
also the redistricting issues.
    Mr. Nugent. The State of Florida I believe has taken on a 
very aggressive approach when folks come in for a driver's 
license renewal and for first-time driver's licenses in regards 
to showing basically whether they are a citizen or not because 
Florida's laws are somewhat different. I believe that may help 
in regards to identifying those that should or should not be 
voting that are citizens or not. I would just recommend to 
those States that do not do that--I understand that as 
Secretary of State, you can only recommend to the legislature, 
as we see up here, and that you still have to get a bill 
passed. But I would suggest to you that anything that you can 
do obviously to shore up the ability to make sure that we have 
U.S. Citizens voting in U.S. elections, I would be grateful.
    Thank you.
    Mr. Harper. I now recognize Mr. Lungren for any questions 
he may have.
    Mr. Lungren. Thank you very much, Mr. Chairman. Thank you 
for having this hearing.
    I understand that our system is based on trust. Ronald 
Reagan used to say ``trust but verify,'' and it is the last 
part of it that I am a little concerned about.
    I worked on the Voting Rights Act extension in the 1980s, 
and then worked for it when I came back here this time. I also 
worked on the immigration bill since it was early in the 1980s. 
One of the things that I found out there is that unless you 
have an enforcement program, some people take advantage of it.
    I am the author of H.R. 4, which is to get rid of an 
extraneous part of the health care bill that would have--or 
still does, unless the Senate wakes up and finally deals with 
the bill--would have put a tremendous onus on business people, 
particularly small business people, to file 1099s any time they 
had a transaction or a series of transactions that totalled 
over $600 in a single year.
    And yet the thinking behind that was not that the 1099 had 
to be filed because the person filing it had an obligation to 
pay something; it was to report on the other side of the 
transaction. And then we had the Federal Government score that 
section of the bill as worth 19, and then if it involved mom 
and pop shops who rented out some property, $21 billion. The 
assumption was that business men and women cheated so much that 
we would get $21 billion if someone talked about it, yet it 
almost presumes that even though business men and women cheat, 
nobody else cheats, particularly when it comes to registration 
to vote.
    I would love to believe in the perfection of humankind that 
nobody cheats, but I suspect that that is not true. And as 
important as it is to protect one's right to vote is to protect 
one's right not to have your vote canceled out by someone who 
isn't eligible to vote.
    So here is my question to the first three panelists: Do you 
have any reason to believe there is any measurable percentage 
of people on our voting rolls who don't have a right to be 
there? Or is it perfection that we have reached in this 
society?
    Ms. Gill. Well, if I may, personally, I think that, yes, 
there are people on the rolls who probably should not be there, 
some of them willfully and some of them not willfully. However, 
to your point, what do we do about it?
    Mr. Lungren. Well, that is my question. We have three 
people here who are experts, and I would like to know what you 
think we ought to do about it.
    Ms. Gill. Right. How do we enforce it? The only thing that 
we can do to enforce it is make people show some sort of proof 
of citizenship. Now if that is the way you want to go as far as 
nationalization papers or birth certificates. I think with the 
driver's license, as we go forward with the new type of 
driver's license where, when we go to the driver's license 
bureau, now we have to bring a birth certificate. We have to 
bring--if we have had a name change, we have to bring some 
indication of a marriage certificate or something that proves 
your identity. We are moving toward that way.
    But as far as making it part of the voter registration 
process, I have to really question whether we would 
disenfranchise more people by doing it, really eligible voters, 
than actually having them have to bring it and show proof. So 
if we haven't shown proof, I think we are going to 
disenfranchise more people than we save----
    Mr. Lungren. So you don't have an answer.
    Ms. Gill. Well, no. My answer is, right now, I think that 
we have to go with what we have got right now. And if we have 
credible information that somebody is a noncitizen, then we 
pursue it from there.
    And as we move forward with this driver's license, that we 
are now going to have some proof of identification.
    Mr. Lungren. Has anybody ever been prosecuted in your 
jurisdiction?
    Ms. Gill. Not in my jurisdiction.
    Mr. Lungren. In the State of Florida, to your knowledge?
    Ms. Gill. I don't really know.
    Mr. Lungren. Mr. Ritchie.
    Mr. Ritchie. Chairman Lungren, yes. In fact, in our State, 
it is mandatory that county attorneys must investigate any 
allegations or anything that we refer, and so it is mandatory. 
I think our situation is different than Colorado in that way.
    Second, all crimes related to elections are felonies in our 
State. I don't believe that is the same--Congressman Gonzalez 
asked the question about differentiation--for us it is all 
felonies. This is an important thing.
    The third thing is that we work very hard to try to reduce 
the cost to law enforcement, and the judicial system, by making 
sure things are flagged beforehand, making sure that people who 
are inadvertently on the list because of a typo at the 
Department of Public Safety or some other reason are flagged 
beforehand so that we don't have to deal with that situation 
after the election because it is very expensive.
    Let me give you one quick example. Election day 2008, a 
young man way up on the Canadian border, just out of the 
prison, was very proud, getting his life back together, putting 
his life back together, called his parole officer and got the 
answering machine and said: I am getting my life back together. 
I am going to be a good citizen. I am a very strong supporter 
of Senator McCain and Senator Coleman. I am going down to vote. 
Aren't you proud of me for being a citizen and for being 
active? He, unfortunately, was not yet off parole. And so he 
went down, not trying to hide anything, of course, and before 
his parole officer was able to reach him, he violated the law 
in Minnesota and committed another felony. His parole officer 
called him and said, don't, and it was too late. And so 
actually he was prosecuted under a gross misdemeanor, 30 days 
in the county workhouse, a little tiny county that really can't 
afford to do a lot of extra prosecutions or put people up for a 
jail term; very expensive problem for the county and for this 
young man's life.
    The legislature actually took that seriously because it 
turned out many people were not certain about their status, and 
it is partly because the States around us have different laws. 
In North Dakota, if you are in prison, you cannot vote. If you 
are out of prison, you can. That is their law. So when you are 
on the border of other States, I think we have a number of our 
citizens not certain. And so in that instance, the legislature 
passed a law requiring all judges, all correction officials 
must say affirmatively, you have lost your right to vote, you 
will not have your right to vote until you are completely off 
paper; the bill passed, with strong bipartisan support, but it 
was vetoed. Our Governor felt like the judges had too much to 
do already.
    In the course of that process, we made a very strong case 
that the expense of prosecuting people who voted inadvertently 
for felony offenses was so extraordinary, it was worth spending 
the money to convert the court and corrections data into 
electronic form so it could be matched with our database, our 
elections database, so that they could be challenged on the 
front end, in case they went in, then this information would be 
there, and you could say, hey, wait a minute, you are 
challenged here, you are still on paper. If the person said, 
no, I am off paper now, they would say great, and they would 
have to sign a separate form. But if they were to say, oh, you 
mean I can't vote? Well, no, you can't; it is a felony. And so 
we have found that spending the money on the front end saves a 
tremendous amount of money on the prosecution side.
    Secretary Gessler's approach of trying to identify people 
and get the word out to people to avoid prosecutions on the 
other end--in my State, it is mandatory and it is a felony--is 
a very inexpensive approach to what is going to be a very 
expensive process on the other side.
    I feel like this change with the new electronics and the 
digital data makes it possible--and in our State, we always 
have a few prosecutions of felons who have voted and that kind 
of thing, but we have the tools now to make our databases much 
cleaner and flagged up front. That can save us a tremendous 
amount of money in prosecutions, and investigations after the 
fact.
    But we have to learn how to use our databases. We have got 
to get data, and we have to take the money that we would have 
spent on prosecutions, and invest it on the front end, so we 
have made the technological advances so that our computers can 
talk to each other. Then we can save real money down the road.
    Thank you.
    Mr. Harper. I thank you all for your testimony today.
    Mr. Carbullido, I will be sending you a request, some 
questions dealing with your dealings with the EAC. I think that 
would be helpful to us not only here, but for future matters 
that we will consider.
    I now ask unanimous consent to enter the following 
documents into the hearing record: Number one will be the 
report referenced by Secretary of State Gessler in his 
testimony detailing their State's investigation into possible 
noncitizen voting.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Harper. And the second is an article that sites a 
similar study on noncitizen voting that is currently being 
conducted by the New Mexico Secretary of State.
    Without objection to that request, it is so ordered.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Harper. I want to thank each of you for being here to 
testify, for the members, for their participation. I know it is 
not easy to get here, and you have been very helpful to us 
today. I now adjourn the subcommittee.
    [The information follows:]
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
